                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




INSPECTION REPORT
Allegations Regarding Personnel Security
Concerns at Oak Ridge National Laboratory




 INS-O-14-02                         June 2014
                                 Department of Energy
                                   Washington, DC 20585

                                          June 4, 2014



MEMORANDUM FOR THE DIRECTOR, OFFICE OF INTELLIGENCE AND
                  COUNTERINTELLIGENCE
               DEPUTY DIRECTOR FOR FIELD OPERATIONS, OFFICE OF
               SCIENCE


FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                             for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Allegations Regarding
                         Personnel Security Concerns at Oak Ridge National Laboratory"

BACKGROUND

Oak Ridge National Laboratory (ORNL) is the largest science and energy national laboratory in
the Department of Energy (Department). UT-Battelle, LLC (UT-Battelle), manages ORNL and,
as of October 2013, has over 6,000 employees, including subcontractors. Contractor personnel
are required to have proper identification and criminal history background checks in accordance
with Homeland Security Presidential Directive 12. However, subcontractors are excluded from
this requirement except when a clearance is necessary because of work location and/or type of
work performed. Further, if an individual has a Q clearance and specific need-to-know, that
person is granted access to Sensitive Compartmented Information (SCI). When SCI access is no
longer required, individuals must go through a debriefing process designed to ensure that they
remain cognizant of their duty to continue to protect classified information.

We received a request from the Office of Science to review a complaint alleging that: (1) a
senior ORNL employee continued to maintain access to SCI after changing employment status
from full-time to casual employee without proper justification; and (2) ORNL declined to
implement a recommendation to conduct criminal history background checks on all
subcontractors working on-site for more than 30 days. In response, we initiated this inspection
to examine the facts and circumstances surrounding the allegations.

RESULTS OF INSPECTION

We did not substantiate the access to SCI related allegation. However, during the course of our
review, we identified several weaknesses regarding processes used to debrief individuals with
SCI access and to report overseas employment of those holding active security clearances. In
particular, we noted that even though actual in-person debriefings were normally required,
officials instead used administrative debriefings, a process where a Special Security Officer
makes a notation of "Unavailable for Signature/Administrative Debrief," along with the date
and reason, on a required non-disclosure agreement without actually conducting a debrief. In
addition, UT-Battelle did not make a timely notification to the Cognizant Personnel Security
Officer that the casual employee discussed in the allegation had accepted overseas employment.

We substantiated the allegation that ORNL declined to implement the recommendation to
conduct criminal history background checks on all subcontractors working on-site for more than
30 days. However, we determined that background checks were not required for subcontractors
working in an unclassified area. Further, we noted that UT-Battelle implemented a new
Security Requirements contract clause for subcontractors to have background checks completed
when working in one particular facility that housed classified information.

Improper administrative debriefing occurred because management officials at the Department's
Office of Intelligence and Counterintelligence (Headquarters Intelligence) did not fully
implement the Sensitive Compartmented Information Debriefing Policy No. 001-06, Sensitive
Compartmented Information Debriefing Policy, which required Special Security Officers to
conduct in-person debriefings unless the individual could not appear due to medical reasons or
extenuating circumstances (e.g. deceased). Headquarters Intelligence officials are responsible
for enforcing this policy and ensuring that Special Security Officers at the Department's
Intelligence Elements, such as ORNL's Field Intelligence Element, have applied the policy
appropriately. Headquarters Intelligence, however, failed to provide the proper guidance and
training as to when administrative debriefings were appropriate. In fact, Headquarters
Intelligence officials told us they were unaware of the policy and that more needs to be done to
ensure Special Security Officers properly conduct SCI debriefs.

We are troubled that Headquarters Intelligence officials were not cognizant of existing policy
requirements, especially when a number of Department Office of Inspector General inspection
reports over the years have highlighted problems regarding administrative debriefings. While
officials indicated that corrective actions had been taken related to previous recommendations,
the actions do not appear to have been effective. When we brought the matter to their attention,
Headquarters Intelligence officials informed us that they were compiling and reviewing all
internal policies to ensure they are still relevant and applicable to accomplishing their mission.

Without completion of required security actions, former Department employees and contractors
would not be reminded of classified information regulations and could unknowingly initiate a
compromise of highly sensitive national security information. In addition, if Federal officials are
not appropriately notified of overseas employment, individuals could inappropriately maintain
access to national security information. We believe improvements are warranted in these areas
and have made recommendations designed to assist management in ensuring that classified
information with restrictions is properly protected.

MANAGEMENT REACTION

Management concurred with our recommendations and indicated that it was in the process of
implementing corrective actions. We found management's comments and planned corrective
actions to be generally responsive to our report findings and recommendations.
Management's formal comments are included in Appendix 3.

Attachment

                                                 2
cc:   Deputy Secretary
      Deputy Under Secretary for Science and Energy
      Chief of Staff
      Manager, Oak Ridge National Laboratory Site Office
      Manager, Oak Ridge Office




                                            3
INSPECTION REPORT ON ALLEGATIONS REGARDING
PERSONNEL SECURITY CONCERNS AT OAK RIDGE
NATIONAL LABORATORY


TABLE OF CONTENTS

Inspection Report

Details of Finding…………………………………………………………………………………1

Recommendations…………………………………………………………………………………5

Management Response and Inspector Comments…………………………………………….…..6

Appendices

  1. Objective, Scope and Methodology……………………………………………………….7

  2. Prior Reports………………………………………………………………………………9

  3. Management Comments…………………………………………………………………11
ALLEGATIONS REGARDING PERSONNEL SECURITY
CONCERNS AT OAK RIDGE NATIONAL LABORATORY

MANAGEMENT OF SECURITY-RELATED PROCESSES
We did not substantiate the allegation that a former UT-Battelle, LLC, (UT-Battelle) senior
management official continued to maintain access to Sensitive Compartmented Information
(SCI) after changing employment status from full-time to casual employee 1 without proper
justification. However, during the course of our review, we identified weaknesses regarding the
processes used to administratively debrief individuals with SCI access and report overseas
employment. Further, we substantiated the allegation that the Oak Ridge National Laboratory
(ORNL) declined to implement the recommendation to conduct criminal history background
checks on all subcontractors working on-site for more than 30 days. We determined that
background checks were not required for subcontractors working in an unclassified area.
However, UT-Battelle implemented a new Security Requirements contract clause specifying that
subcontractors have background checks completed when working in one particular facility which
housed classified data.

SCI Access

Our review found that UT-Battelle followed the Department's Office of Intelligence and
Counterintelligence (Headquarters Intelligence) internal process in requesting a re-justification
for SCI access for the casual employee. The Headquarters Intelligence SCI re-justification
process entails providing Headquarters Intelligence personnel the rationale as to why the
employee should retain this level of access. Headquarters Intelligence prepares the SCI Access
Request Form for processing and approval. On September 18, 2012, UT-Battelle submitted a re-
justification for SCI access to Headquarters Intelligence after the former UT-Battelle senior
management official changed his employment status to casual employee. This re-justification
was premised upon the casual employee, who has expertise in high performance computing,
participating as a member of the ORNL Global Security Directorate's Strategic Advisory Group.
The Strategic Advisory Group is comprised of a mix of industry, Government, academia and
scientists who advise ORNL on its alignment with national security needs. On November 1,
2012, Headquarters Intelligence approved the re-justification. However, upon further analysis by
Headquarters Intelligence and UT-Battelle, officials determined that the casual employee had not
attended two Strategic Advisory Group meetings. As a result, the individual's SCI access was
cancelled. The annotation on the form indicated that the individual was administratively
debriefed on February 6, 2013.

Use of Administrative Debriefs

We found that Special Security Officers completed SCI administrative debriefings instead of
exhausting other priority debriefing methods, as required. Headquarters Intelligence Policy No.
001-06, Sensitive Compartmented Information Debriefing Policy, requires Special Security
Officers to conduct debriefings in-person unless the individual cannot appear due to medical
reasons or extenuating circumstances (e.g. deceased). If an in-person debrief cannot be

1
  Casual employee as defined by the ORNL/UT-Battelle contract is an exempt or nonexempt non-salaried employee hired to
work on a project type or intermittent basis and their work hours are determined on a case-by-case basis by their management.
These employees are paid weekly and are not expected to work a fixed full-time schedule in excess of 6 months.


Details of Finding                                                                                                    Page 1
completed, debriefings may be conducted by telephone, certified mail, or administratively.
Administrative debriefs occur when a Headquarters Intelligence official annotates the
individual's debriefing acknowledgement form indicating that the individual was not able to sign.

Contrary to Headquarters Intelligence policy, we found that in Fiscal Year 2013, 48 SCI debriefs
were completed administratively, including the casual employee mentioned in the complaint. Of
the 48, Headquarters Intelligence provided documentation to adequately support 4 administrative
debriefs that were completed, 3 that were due to deaths and 1 for medical reasons. As such, we
concluded that the remaining individuals must have been available to participate in the preferred
debriefing method. Individuals who are administratively debriefed from SCI are not reminded of
ongoing obligations to safeguard SCI, acknowledge lack of possession of any documents
containing SCI, and report any attempts by an individual to solicit information.

Overseas Employment

We determined that UT-Battelle did not appropriately notify the Cognizant Personnel Security
Officer (CPSO) that a senior ORNL employee, discussed in the allegation, that held a Q-
clearance, 2 accepted overseas employment. Department Order 472.2, Personnel Security,
requires contractors to notify the CPSO of any conditions affecting the contractor employee's
security status within 2 working days followed by written confirmation within 10 working days
once the contractor is made aware of a personnel security interest such as "Employment by,
representation of, or other business-related association with a foreign or foreign owned
interest…."

A UT-Battelle senior official did not inform the CPSO until at least 470 days after the required
reporting date that the casual employee had accepted a position in a foreign country. The casual
employee mentioned above began overseas employment on September 1, 2012, and the UT-
Battelle senior official notified the CPSO on November 18, 2013. Consequently, UT-Battelle
did not timely notify the CPSO of the overseas employment. Failure to notify appropriate
security personnel of overseas employment could potentially result in the improper continuation
of an individual's security access to sensitive Government information. As such, more needs to
be done to ensure that the CPSO is made aware when UT-Battelle employees with clearances
obtain overseas employment while also still being employed by UT-Battelle.

Background Checks

We confirmed that ORNL declined to implement the recommendation to conduct criminal
history background checks on all subcontractors working on-site for more than 30 days, as
alleged. We found that ORNL subcontractors are not required to have a criminal background
check before entering the Laboratory. According to Department Order 206.2 Identity,
Credential, and Access Management, any employees, such as those employed by UT-Battelle,
who have Homeland Security Presidential Directive 12 (HSPD-12) badges, must have
background checks completed. However, we determined that UT-Battelle subcontractors are

2
  A security clearance is an administrative determination that an individual is eligible for access to classified information. A Q-
clearance authorization is required for access to Restricted Data and Special Nuclear Material as defined by the Atomic Energy
Act of 1954, as amended.


Details of Finding                                                                                                        Page 2
generally not required to have background checks, except when performing work in certain
locations and/or certain types of work that will require the subcontractor to have a background
check or clearance. For example, subcontractors working in the unclassified area of the facility
do not require a security clearance or an HSPD-12 type badge. During interviews, we confirmed
that a subcontractor with a felony criminal conviction worked in the unrestricted area (no
clearance required) of a particular building which also houses the Sensitive Compartmented
Information Facility (SCIF). UT-Battelle discovered the conviction after a discussion with the
subcontractor pertaining to an opportunity for new job responsibilities that required a
background check.

Based on the ongoing efforts of the ORNL Security Integration Team 3 and this incident, as of
October 1, 2013, UT-Battelle implemented a new Security Requirements contracting clause for
subcontractors that requires all persons working in the facility where the SCIF is located to have
a criminal record background check even if they only had access to the unrestricted area of the
facility. Further, UT-Battelle is in the process of evaluating current subcontractors working in
the facility to determine which employees have a need for continued access in the particular
building. Although not required, we believe that UT-Battelle has taken proactive steps by
instituting efforts to evaluate background checks for subcontractors working in the building.

Contributing Factors and Impact

The improper administrative debriefing occurred because management officials at Headquarters
Intelligence did not fully implement Policy No. 001-06. Headquarters Intelligence also failed to
provide the proper guidance and training when administrative debriefings were used by the field
offices. Headquarters Intelligence is responsible for enforcing this policy and ensuring that
Special Security Officers at the Department Intelligence Elements, such as ORNL's Field
Intelligence Element, have applied the policy appropriately. Further, Headquarters Intelligence
told us they were unaware of the policy and that more needs to be done to ensure Special
Security Officers are aware of the policy so they can properly conduct SCI debriefs. Although
the officials said that they were unaware of the policy, the Office of Inspector General has made
a number of recommendations in separate reports regarding administrative debriefings and
Headquarters Intelligence has indicated that corrective actions had been taken. To address this
matter, Headquarters Intelligence officials informed us that they are compiling and reviewing all
internal policies to ensure they are still relevant and applicable to accomplishing their mission.
In addition, the issue involving failure to notify the CPSO of an employee accepting overseas
employment was due to an inadvertent oversight by UT-Battelle.

Without completion of required security actions, former Department employees and contractors
would not be reminded of classified information regulations and could unknowingly initiate a
compromise of highly sensitive national security information. In addition, if Federal officials are
not appropriately notified of overseas employment, individuals could inappropriately maintain




3
  The Security Integration Team was set up to protect ORNL people and property through an integrated approach to physical
security, personnel security, cyber security and counterintelligence and is comprised of UT-Battelle personnel from these areas.


Details of Finding                                                                                                     Page 3
access to sensitive Government information. We believe improvements are warranted in these
areas and have made recommendations to assist management in ensuring that classified
information with restrictions is properly protected.




Details of Finding                                                                   Page 4
RECOMMENDATIONS
To address the issues identified in this report, we recommend that the Director, Office of
Intelligence and Counterintelligence:

   1. Ensure that appropriate Headquarters Intelligence Officials and Special Security Officers
      are made aware of and provided training on the requirements for conducting SCI
      debriefings; and

We also recommend that the Oak Ridge National Laboratory Site Office Manager:

   2. Ensure that the CPSO is appropriately notified of a change in need for access to classified
      information or Special Nuclear Material when a foreign nexus is involved, such as
      overseas employment.




Recommendations                                                                              Page 5
MANAGEMENT RESPONSE AND INSPECTOR COMMENTS
Management concurred with our recommendations and indicated that corrective actions were in
the process of being implemented. We found management's comments and planned corrective
actions to be generally responsive to our report findings and recommendations. On April 15,
2014, Department management sent a letter to the ORNL contractor as a reminder of the
requirements pertaining to Department Order 472.2, and the information which must be reported
in accordance with the Contractor Requirements Document in this Order.

Management's formal comments are included in Appendix 3.




Management Response and Inspector Comments                                            Page 6
                                                                            APPENDIX 1

                  OBJECTIVE, SCOPE AND METHODOLOGY
Objective

We received a request from the Office of Science to review a complaint alleging security
concerns at Oak Ridge National Laboratory (ORNL). Specifically, it was alleged that: (1) a
senior ORNL employee continued to maintain access to Sensitive Compartmented Information
after changing employment status from full-time to casual employee without proper justification;
and (2) ORNL declined to implement a recommendation to conduct criminal history background
checks on all subcontractors working on-site for more than 30 days. In response, we initiated
this inspection to assess the facts and circumstances surrounding the allegations.

Scope

We conducted the fieldwork for this allegation-based inspection between September 2013 and
June 2014. We focused the inspection on ORNL, Oak Ridge Field Office and Department of
Energy (Department) Office of Intelligence and Counterintelligence personnel involved with
criminal history checks and access to Sensitive Compartmented Information. We interviewed 22
individuals who had involvement with various subjects including background checks, Sensitive
Compartmented Information, and administrative debriefings. This included discussions with
both Federal and contractor personnel in legal, human resources and security offices. We
reviewed and analyzed 48 Sensitive Compartmented Information administrative debriefs that
were completed from October 2012 through October 2013. The inspection was conducted under
Office of Inspector General Project Number S13IS015.

Methodology

To accomplish the inspection objective, we:

   •   Evaluated Department and local policies, procedures and guidance on employee
       background checks and access to Sensitive Compartmented Information;

   •   Interviewed Federal and contractor officials including Headquarters personnel, ORNL
       directors, ORNL's Intelligence employees and other appropriate personnel; and

   •   Obtained and reviewed information, documents and emails concerning various aspects of
       the allegation.

We conducted this allegation-based inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provided a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to


Objective, Scope and Methodology                                                        Page 7
                                                                              APPENDIX 1
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Finally, we relied on computer-processed data, to some extent, to satisfy our objective.

We held an exit conference with ORNL management on April 11, 2014.

We confirmed the validity of such data, when appropriate, by reviewing source documents. The
Department's Office of Intelligence and Counterintelligence waived the exit conference on
April 7, 2014.




Objective, Scope and Methodology                                                         Page 8
                                                                              APPENDIX 2

                                    PRIOR REPORTS

   •   Inspection Report on Badge Retrieval and Security Clearance Termination at Sandia
       National Laboratory- New Mexico, (DOE/IG-0724, April 2006). The objective of this
       inspection was to determine if Sandia National Laboratory's (Sandia) internal controls
       were adequate to ensure that, in accordance with applicable policies and procedures: (1)
       security badges assigned to terminating Sandia and subcontractor employees were
       retrieved at the time of their departure; and (2) security clearances of departing Sandia
       and subcontractor employees were terminated in a timely manner. The report found that
       22 of 52 people did not sign a Sensitive Compartmented Information (SCI) Debriefing
       Acknowledgement document, so there was no assurance that prior to departure they
       received the required SCI debriefing acknowledgement document. This practice is
       commonly referred to as "administrative debriefing." We believe that given the
       significance of the SCI program and the stringent security policies applicable to
       safeguarding SCI information, administrative debriefings should be rare.

   •   Inspection Report on Office of Intelligence and Counterintelligence Internal Controls
       Over the Department of Energy's Sensitive Compartmented Information Access Program,
       (DOE/IG-0790, July 2008). The objective of this inspection was to determine if the
       Department of Energy (Department) Office of Intelligence and Counterintelligence
       (Headquarters Intelligence) had adequate internal controls for granting, maintaining and
       terminating SCI access authorizations to the Department Federal and contractor
       employees. The report determined that Headquarters Intelligence did not have adequate
       internal controls over its SCI access program. We found that individuals apparently were
       "administratively debriefed" from SCI access by Headquarters Intelligence without that
       office making all attempts to contact those individuals to ensure they received
       instructions regarding their continued obligation to safeguard SCI. We also noted that
       Headquarters Intelligence established an SCI debriefing policy in response to one of the
       prior Inspector General reviews.

   •   Inspection Report on Internal Controls Over Sensitive Compartmented Information
       Access for Selected Field Intelligence Elements, (DOE/IG-0796, July 2008). The
       objective of this inspection was to determine the adequacy of internal controls over
       access to intelligence information at two selected Field Intelligence Elements, Los
       Alamos National Laboratory (Los Alamos) and Sandia. We found that the Los Alamos
       Field Intelligence Element had not terminated the SCI access authorizations of 13
       individuals whose personnel security clearances had been terminated for up to 10 months
       prior. This appeared to be the result of the Los Alamos Field Intelligence Element not
       having an effective means of being kept apprised of employee and personnel security
       clearance terminations. We also observed that this condition has the potential to result in
       the over-use of "administrative debriefings" by the Los Alamos Field Intelligence
       Element.

   •   Inspection Report on Security Clearances at Lawrence Livermore National Laboratory
       and Sandia National Laboratory-California, (INS-O-09-01, December 2008). The
       objective of this inspection was to determine if security clearance justifications at


Prior Reports                                                                             Page 9
                                                                               APPENDIX 2

   •    Lawrence Livermore National Laboratory (Livermore) and Sandia met the Department's
       requirements. Livermore and Sandia officials did not fully adhere to Department
       requirements regarding security clearance justifications. Specifically, these officials
       requested and retained security clearances inconsistent with Department policy.
       Clearance justifications for 28 of 40 individuals stated that the individuals required a "Q"
       clearance to access secret restricted data, top secret data, or similar reasons on a daily or
       weekly basis. This proved to be inconsistent with their assigned duties. We also
       observed that there were not any internal controls concerning security clearance
       justifications. Specifically, after the contractor requestor prepared the security clearance
       justification form, contractor and Service Center personnel security reviewed the form for
       completeness, but neither validated the security clearance justification.




Prior Reports                                                                             Page 10
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 11
                      APPENDIX 3




Management Comments        Page 12
                      APPENDIX 3




Management Comments        Page 13
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
